  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENEML




MEDICARE BENEFICIARY SATISFACTION:
               1993




                  AUGUST   1993
                      OFFICE OF INSPECr.OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Offke of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-todate information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,

Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General,

Office of Evaluations and Inspections. Principal OEI staff included:


Atlanta Retion                                                       Headquarters

Betty Apt, Team Leader                                               Tom Noplock

Kimberly Graves, Cmztrac@-                                           Wm. Mark Krushat, SC.D.

Josiah Townsel                                                       Barbara Tedesco

Peggy Daniel                                                         Tina Fuchs

Paulette Monroe

Jacqueline Andrews


To obtain a copy of this report, call the Atlanta Regional Office at (404) 331-5022.

  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENEML




MEDICARE BENEFICIARY SATISFACTION:
               1993




             AUGUST   1993   OEI-04-92-004S0
              EXECUTIVE                           SUMMARY


PURPOSE

To determine Medicare beneficia~     experience    and satisfaction with Medicare services
in 1993.

BACKGROUND

The Office of Inspector General (OIG), Department of Health and Human Services
(HHS), surveyed a random sample of Medicare beneficiaries. We mailed a
questionnaire to 1293 randomly selected beneficiaries for whom Medicare Part B
claims were submitted in Calendar Year 1991. Participation in the survey was
voluntary and y“elded a response rate of 84 percent.

We attempted to compare the level of beneficiary satisfaction in 1993 to that
expressed by beneficiaries in 1989 and 1991. However, a comparison was not always
possible because of differences in survey questions for the three survey years. In
instances where our survey questions were the same, we did compare beneficiary
satisfaction and experience.

FINDINGS

Ove@ most beneficiaries expressed satisfaction with the Medicare program.
We draw this conclusion from the following findings:

Most benejkiaries said the pmgmm was undemtandhble and they were ablk ti get general
Medicare bafonnation when they needed k

   .€   Seventy-five percent of the beneficiaries said they think the Medicare program
        is understandable.   This number is comparable to the number of beneficiaries
        who expressed understanding in 1989 and 1991 when 73 and 79 percent,
        respectively, said the program was understandable.

   .€   Seventy-two percent of the beneficiaries said they could get information about
        Medicare when they needed it. Only seven percent said they could not get
        information when they needed it. Twenty-one percent said they did not know if
        they could get information.

Most beneji&ti    expressed sati$action ~        allhough some lacked understanding oj
chins processing.

   .€   Eighty-three percent of Medicare beneficiaries said they were at least generally
        satisfied with the way Medicare processed their claims.



                                             i
  .€   Thirty-five percent of all the beneficiaries had experienced a problem with their
       last claim. However, this insignificantly less than the67percent   who cited
       problems in 1991.

  .€   In the 1991 and 1993sumeys, themost frequently cited problem tith claims
       processing was understanding what Medicare paid for and why.

Mxt  benejiihries who cakd their caniins were sa&jied wikh serviag but some tek@orae
probkms W= encountered

  .€   Seventy-four percent of the beneficiaries who had called their carriers were at
       least generally satisfied with the semice they received.

  .€   Half of the 288 beneficiaries who called had experienced problems the last time
       they tried calling. This is significantly less than the 82 percent who said they
       had problems calling their carriers in 1991.

  .€   In the 1991 and 1993 surveys, the most frequently cited problem with calling
       carriers was finding the line busy.

Some benejkiati    are aware that Medicare pays for second opinions prior to wugery, but
f~ obtain them

  .€   Thirty-nine percent of the beneficiaries said they were aware that Medicare
       pays for second opinions prior to surge~. While this is fewer than the 43
       percent and 41 percent who were aware of second opinions in 1989 and 1991,
       respectively, the result is not statistically significant.

  .€   Only 19 percent of the beneficiaries surveyed in 1993 who had non-emergency
       surgery obtained a second opinion.

Mi.w ben@iar&     are aware of participating physichq   and the majority use them.

  .€   Eighty-three percent of the beneficiaries said they were aware of Medicare’s
       participating physicians. This is more than the 77 percent and 76 percent who
       were aware of participating physicians in 1989 and 1991 respectively.

  �	   In the 1993 survey, 65 percent of the beneficiaries said they used participating
       physicians. This use is about the same as in 1989 and 1991.




                                            ii
                     TABLE                     OF CONTENTS
                                                                                                                                                        PAGE

EXECUTIVE        suMMARY


INTRODUCTION            ................................................. 1


FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   Beneficiaries Understand            the Medicare Program . . . . . . . . . . . . . . . . . . . . . . . . 4

   Beneficiaries Can Get Information When                      Needed       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ... 5
          Getting General Information..    .                  .......       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...5
          Using Medicare Handbook . . . . .                   .......       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...5

          Getting Specific Information . . .                  .......       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...6

   Beneficiaries Satisfied With Medicare’s Claims Processing . . . . . . . . . . . . . . . . . 7
          Claims Processing Problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8
          Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9

   Beneficiaries Satisfied With Carriers’ Telephone Services . . . . . . . . . . . . . . . . 10
          Problems With Telephone Services . . . . . . . . . . . . . . . . . . . . . . . . . ..11
          Automated Voice System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...13

   Beneficiaries’ Use ofSpecial Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...14
          Second Opinion onthe Need for Surgery . . . . . . . . . . . . . . . . . . . . ...14
          “ParticipatingP hysician’’Program  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


CONCLUSION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...15


APPENDICES

   Responses to1989 and 1991 Surveyof
          Medicare Beneficiary Satisfaction . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1
   Comparison to the1989and     1991 Surveys . . . . . . . . . . . . . . . . . . . . . . . . . . B-1
   Analysis of Respondents vs. Non-Respondents        . . . . . . . . . . . . . . . . . . . . . . . C-1
                         INTRODUCTION

PURPOSE

To determine Medicare beneficiary experience and satisfaction with Medicare sewices
in 1993.


BACKGROUND

Me&are l%gram

Medicare is a Federal health insurance program for individuals age 65 and older, and
forcertain categories ofdisabled people. Authorized in1965by title XVIII of the
Social Security Act, Medicare serves approximately 35 million people, known as
beneficiaries. In Fiscal Year 1992, Medicare paid benefits totalling approximately
$129 billion.

The Medicare program has two parts. Part A(hospital insurance) helps pay for
inpatient hospital care, some inpatient care in a skilled nursing facility, skilled home
health care, and hospice care. A person entitled to Medicare automatically receives
this coverage. Part B (medical insurance) covers physician services, outpatient hospital
services, and other medical services and supplies. Part B is optional. Beneficiaries
desiring this coverage pay a monthly premium. Both Part A and Part B have
deductible and coinsurance requirements. Beneficiaries must pay these either out of
pocket or through supplemental insurance coverage.

The Health Care Financing Administration (HCFA) within the Department of Health
and Human Services (HHS) has responsibility for the Medicare program. However,
other organizations share program administration. The Social Security Administration
establishes eligibility, enrolls beneficiaries in the program, and collects premiums for
Part B coverage. Private health insurance companies contract with the Federal
Government to service claims for Medicare payment. Insurance companies that
handle Part A claims are called intermediaries. Those handling Part B claims are
called carriers.

Recent Changes

The Medicare program is continually undergoing change. The 1989 Omnibus Budget
Reconciliation Act added Section 1848 to title XVIII of the Social Security Act. This
new section required that, effective September 1, 1990, physicians and other providers
submit all claims rather than beneficiaries submitting their own. Effective January 1,
1991, it also limited the amount physicians can charge Medicare beneficiaries.
In 1989, reconducted      anational sumeyof Medicare beneficiaries to assess their
awareness of and satisfaction with various aspects of the Medicare program. The
report was entitled “A Survey of Medicare Beneficiary Satisfaction” (OAI-04-89-
89040). As a result of that study, HCFA requested that we conduct similar surveys of
beneficiaries in Georgial and New Jerse~ -- States where there had been reports of
beneficiary dissatisfaction with Part B carriers. As a follow-up to the 1989 survey, we
conducted a second national survey of Medicare beneficiaries in 1991. That study was
entitled “Medicare Beneficiary Satisfaction: 1991.” (OEI-04-90-89030).


METHODS

1993 Sunq$

In February 1993, we mailed a survey instrument composed of 51 questions to 1293
randomly selected Medicare beneficiaries. We selected beneficiaries for whom
Medicare Part B claims had been filed in Calendar Year 1991.

Based upon previous experience with similar client and beneficiary surveys, the sample
size was calculated to produce an estimate within 3.5 percent of the true value at the
95 percent confidence level. We used standard equations for estimating sample size
with a binary response variable.

Thirty-seven beneficiaries were dropped from the sample for various reasons: 21
questionnaires were undeliverable, 7 beneficiaries were deceased, and 9 individuals
were erroneously selected. This reduced the sample size from 1293 to 1257.

Beneficiaries’ participation in the survey was voluntary. A total of 1053 beneficiaries
returned completed questionnaires, for a response rate of 84 percent. Given the size
of our sample and response rates, results of our survey are protectable to the universe
of 35 million Medicare beneficiaries. Percentages in the report are based on the
number of respondents answering each question except in two instances noted in the
report.




   I	
        Office of InspeetorGeneral, United States Departmentof Health and Human Services.
        Beneficial Satisfaction with Georgia’s Medicare Carrier. OEI-O4-9O-O1O5O.
   2	
        Officeof Inspector General, United States Department of Health and Human Service& ~
        Jersev Medicare Beneficiary Satisfaction. OAI-02-90-02040.


                                               2
C-om*n      to 1989 and 1991 Surveys

The majority of the questions in this survey were also used in the 1989 and 1991 OIG
surveys. However, in some instances we worded and sequenced the questions slightly
different. In addition, we provided more possible responses to some questions in the
1993 survey than we had provided in the earlier surveys. This made it impossible to
directly compare responses for these questions in the three years. However, we did
make comparisons among the three years whenever possible. We determined
“significant” differences through use of a t-test.

Appendix A shows responses to all questions in this survey. Appendix B provides a
general comparison of the 1993 survey instrument to our 1989 and 1991 survey
instruments. Appendix C presents an analysis of respondents and non-respondents.

We conducted this inspection in accordance with the Quali~ Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                          3
                                   FINDINGS�

Overall, most beneficiaries expressed satisfaction with the Medicare program. They
said the program was understandable and they were able to get general Medicare
information when they needed it. Most were also satisfied with claims processing and
said their claims were paid quickly enough. However, some beneficiaries had
problems understanding exactly what Medicare pays for. They did not understand
Medicare’s “Explanation of Benefits.” Most beneficiaries who had called their carriers
were satisfied with services received. Although, some beneficiaries found telephone
lines busy when they called their carriers.    -

Approximately 67 percent of the beneficiaries responding considered themselves to be
in good health. Eighty percent said they have medical coverage in addition to
Medicare.


MOST BENEFICIARIES              UNDERSTAND       THE MEDICARE     PROGRAM

Three-fourths   of the beneficiaries said the Medicare program is understandable.

Figure 1 shows that a 75 percent level of understanding in 1993 is comparable to the
levels expressed by Medicare beneficiaries in 1989 and 1991.


                                       FIGURE        1

                         BENEFICIARIES UNDERSTAND PROGRAM
                Pmtaga


                                          79
                           73                              75




                          I&l            1!iw             Ifis




                                                4

Of the beneficiaries who had been hospitalized, 61 percent said they understood what
services Medicare paid for. Twenty-two percent said it had not been clear. The
remaining 17 percent either did not remember or Medicare had not yet paid their
bills.

Most of the beneficiaries (68 percent) who received home health services said they
understood what services Medicare paid for.

We asked all the beneficiaries surveyed if they understood what Medicare would pay
for on a doctors’ office visit. Fifty-seven percent of the 985 beneficiaries who had
gone to a doctor since they have had Medicare said they understood what Medicare
would pay for. Thirty-five percent said they did not understand, and the remaining
eight percent did not remember whether or not they had a clear understanding of
what Medicare would pay for.

Medicare can limit how much doctors charge beneficiaries for specific services. Sixty-
four percent of all the beneficiaries surveyed said that they were aware of this
limitation. The remaining 36 percent were not aware of this.


BENEFICIARIES      CAN GET INFORMATION           WHEN NEEDED

Getting General Information

Seventy-two percent of the beneficiaries said they thought they could get general
information about Medicare when they needed it. Table 1 illustrates this is a decrease
from previous years. However, the 1993 survey had a “Don’t Know” response option
that was not offered in the previous surveys.


                                 TABLE 1
                      CAN GET GENERAL INFORMATION




 Yes                           85 %                  90 %                   72 %

 No                            1570                  10 %                    7%


 Don’t Know           I                                            I        21 %         I

Using the M&are    Handbook

Over half of the beneficiaries said they refer to the Medicare Handbook for Medicare
information, From a list of possible places people might go to get answers if they



                                           5
have questions about what Medicare pays for, beneficiaries were asked to indicate
which places they would go. They could check more than one likely source. Fifty-four
percent of all beneficiaries said they would refer to the Medicare Handbook. Forty-
eight percent said they would go to their doctor’s office. Forty-five percent said they
would go to the Social Security Office.

Although 54 percent of all beneficiaries said they would refer to the Medicare
Handbook when they needed information, only 42 percent said they had actually used
it. Ninety-three percent of those who had used it found the handbook either “very
helpful” or “generally helpful.” Most said the handbook is easy to understand, contains
adequate information, and the print is easy to read.

Twenty-four percent of all beneficiaries surveyed either did not know what the
Medicare Handbook is or did not recall receiving one. The Medicare Handbook is
issued to beneficiaries when they enroll in the Medicare program. Beneficiaries are
usually notified of changes to the Medicare program through notices in the mail.
However, HCFA mailed new handbooks to each beneficiary in 1989 after the
Catastrophic Coverage Act was passed by Congress, and then again in 1990 after the
Act was repealed.

When asked how they would like to be notified of changes in the Medicare Program,
more beneficiaries (38 percent) said they preferred to receive a new Medicare
Handbook rather than any other type of notification. However, almost as many (35
percent) said they preferred that a pamphlet describing the changes be mailed to
them.


Getting Specific Information

Sixty percent of those beneficiaries who have needed specific information about their
Medicare coverage said they have been able to obtain it most of the time.

Table 2 shows that this number had decreased since our 1991 survey.



                                   TABLE 2
                        CAN GET SPECIFIC INFORMATION




I Most of the Time                       I        58 %   I     67 %      I   60 %         I
] Some of the Time                       I        29 %   I     23%       [   28%          I
] Seldom or Never                        I        13 %   ]     10%       (    12%         (



                                             6

BENEFICIARIES WERE GENERALLY                  SATISFIED        VllT’EI MEDICARE’S
PROCESSING OF CLAIMS

Eighty-three percent of the beneficiaries said they are at least “generally” satisfied with
the way Medicare processed their claims. (See Figure 2.) Likewise, 86 percent said
Medicare paid their claims quickly enough.

                                        FIGURE 2


                      SATISFACTION WITH CLAIMS PROCESSING
                                   very 3atisfied(37%)




                GenerallySatkifM                                           (4%)
                      (6%)
                                                                          1 %)

                                                                           (3%)




Figure 3 shows that the number of beneficiaries expressing satisfaction has declined,
but the 1.993 survey had a response option that was not offered in the 1989 and 1991
surveys.
                                        FIGURE           3

               LEVEL OF SATISFACTION WITH CLAIMS PROCESSING
               100,



                                                             -2%


                                                                                 Neither or Unpdd
                                                                          E      Clalm




                         1&                1991
                                                               1$93




                                                  7

Clabns hc&g             I%blems

Although 83 percent of the beneficiaries said they were generally satisfied or better
with the way Medicare processed their claims, some had encountered difficulties.
When given a list of possible reasons beneficiaries might be dissatisfied, 35 percent of
the beneficiaries surveyed identified one or more problems with their last Medicare
claim. This is significantly less than the 67 percent who cited one or more problems in
1991.

Figure 4 shows that the number of beneficiaries experiencing problems3 has
decreased, but some beneficiaries still have difficulty understanding Medicare
payments.


                                           FIGURE 4

                              CIAIMS PROCESSING PROBLEMS


                       I                                           I            I




                  an





                  20




                  10





                   0





        Thirteen percent of the beneficiaries surveyed said they did not understand the
        “Explanation of Medicare Benefits” Medicare sent after processing their
        claims.4

        Nine percent said Medicare took too long to pay their claims:



   3
   Numbersshown in Figure 4 representthe percent of all beneficiaries surveyed rather than the
        percent who responded to the question about claims processing problems.
   4	
        Thisquestion was added for the 1993 suxvey. Therefore, we were unable to compare it to the
        1989 and 1991 surveys.
   5	
        This question was added for the 1993 survey. Therefore, we were unable to compare it to the
        1989 and 1991 surveys.


                                                 8
At least 10percent of beneficiaries whosaid theywere generally satisfied or better
with the way Medicare processed their claims also said they had a problem with their
last claim. However, Table 3 illustrates that the majority of beneficiaries who had
problems still expressed overall satisfaction with claims processing. To illustrate, of
the 72 beneficiaries who cited a problem with having claims denied, 71 percent were
very or generally satisfied.


                                       TABLE 3

                   PROBLEMS WITH CLAIMS PROCESSING
            RELATED TO BENEFICIARY’S LEVEL OF SATISFACTION




  lNumber of beneficiaries who cited a particular problem and a level of satisfaction.
                                                                                          I




Uiz&mWdhg      and Use of Appeal Righls

Medicare beneficiaries have a right to appeal or request a review of any decision
made on their Medicare claims.

Seventy-five percent of the beneficiaries we surveyed knew they could appeal or
request a review of their claims. This number is slightly lower than in 1991 when 78
percent knew of their appeal rights.



                                            9

Asin 1991, 0nly sixpercent (60) of the beneficiaries in the 1993 survey had ever
appealed a decision. Of these, 67 percent in 1993 said they understood the final
decision made on their claims, and 59 percent thought their appeals were handled
fairly.


MOST BENEFICLMUES          WERE SATISFIED WITH CARRIERS                   TELEPHONE
SERVICES

The Medicare Handbook and the “Explanation of Medicare Benefits” notice include
toll-free telephone numbers of Medicare carriers for beneficiaries who may have
questions about their claims.

Only 29 percent of the beneficiaries had tried to call their carriers. Figure 5 shows
that 74 percent of the beneficiaries who had called said they were generally or very
satisfied with the service they received.



                                      FIGURE     5
                           SATISFACTION WITH PHONE SERVICE




                                                          ISFIED (31 %)




            GENERALLY
             SATISFIED
                                                          VERY DISSATISFIED (5 %)
              (43 %)


                                                          NERALLYDISSATISFIED‘(9 %)



                                         NEITHER (12 %)




Figure 6 shows a comparison of 1993 satisfaction levels with those of 1989 and 1991.
Although fewer beneficiaries expressed satisfaction in 1993, the 1993 survey offered a
“Neither Satisfied nor Dissatisfied” option that was not offered in the previous surveys.




                                           10
                                       FIGURE 6

         LEVEL OF SATISFACTION WHEN CALLING CARRIERS


                                                                  � vh#&mltY
                                                                  � V=m
                                                                  �
                                                                  &j#;Ndthef




                                       1$$1
                       16$9                            1$s




l%blems with Telephone Services

The 29 percent of the beneficiaries  (288) who had called their carriers were given a
list of possible reasons why they might have been dissatisfied the last time they called.
Half of them cited one or more problems. In 1991, 82 percent of the beneficiaries
who had called their carriers cited one or more problems.

Figure 7 illustrates that while the number of beneficiaries who have problems calling
carriers has declined, some beneficiaries still find the lines busy when they try to call.
The numbers shown in Figure 7 represent the percent of all beneficiaries surveyed
rather than the percent who responded to the question about problems calling
carriers.




                                              11
                                      FIGURE 7
                  PROBLEMS WITH TELEPHONE SERVICES


                                                                    1989
                                                                    1991


                                                                    1993





                  “DmmntAnswer$8nd~    utwuwmdwere ti-illlw.





Of the 74 percent of the beneficiaries who had called their carriers and were either
very or generally satisfied, at least 30 percent cited a problem the last time they called.
Table 4 on the next page relates the level of beneficiary satisfaction to the
beneficiaries who identified a problem calling their carriers.




                                             12
                               TABLE 4
               PROBLEMS CALLING CARRIERS RELATED TO
                 BENEFICIARY’S LEVEL OF SATXSFACT’ION




 Line Busy                           95              66 %        15 %          19 %
                             I                  I           I
 “On Hold” Too Long                  63              57 %        19 %          24 %
                             1                  1           I
 Received Conflicting
I Answers
                             I       38         II   40 %   II   20 %     II   40 %     I
                                                                                        I
                             II                 i           I             I
 Answers Not Understood              22              41 %        36 %          23 %
                             I                  I           I             I

 Not Very Courteous                  23              39 %        22 %          39 %
                                                            ,
 Inquiry Not Answered                20              25 %        1570          60 %

 lNumber of beneficiaries who cited a particular problem and a level of satisfaction.




Automated Voice $wterns

Some Medicare carriers use automated voice systems to handle telephone calls.

Eighty beneficiaries who had called their carriers had experienced automated systems.
Table 5 shows that more beneficiaries are encountering automated voice systems in
1993 than in 1991.

                                  TABLE 5
                          AUTOMATED VOICE SYSTEM




                                           13
About 60 percent of the beneficiaries using automated voice systems had encountered
problems with them. Those beneficiaries who had experienced these systems were
asked to check possible problems they may have had. They could check one or more
problems. Thirty-five beneficiaries said they did not have a touch-tone telephone to
respond to the automated voice system, 18 beneficiaries said they could not
understand the directions given by the system, and 7 beneficiaries cited other
problems, such as being disconnected too many times and the system going too fast.


BENEFICIARIES      USED SOME SPECIAL SERVICES OFFERED                BY MEDICARE

We asked our sample of Medicare beneficiaries to provide information on the extent
they use a second opinion for surgery and participating physicians.


Second O-n      on the Need for Szugay

Less than half (39 percent) of all the beneficiaries surveyed were aware that Medicare
pays for a second opinion on the need for surgery. Only 19 percent of the
beneficiaries who had received non-emergency surgery obtained a second opinion
before having the surgery.

Table 6 shows that the number of beneficiaries who were aware that Medicare paid
for second opinions has decreased each of the three survey years.


                                  TABLE 6

                          SECOND SURGICAL OPINIONS




About half of all beneficiaries (51 percent) said they thought people should be
required to get a second opinion from another doctor to make sure non-emergency
surgery is really necessary. Many beneficiaries (44 percent) said it would depend on
the type of surge~ recommended. Five percent of the beneficiaries said that a second
opinion should not be required.




                                          14
Parlicipaling l?hysiciim I?ogmm

Medicare has “participating physicians” who agree to charge no more than Medicare’s
approved amount. Medicare pays 80 percent of the approved amount. A beneficiary
is only responsible for paying a deductible and a 20 percent coinsurance.

Figure 8 shows that the number of beneficiaries who were aware of participating
physicians in 1993 has increased when compared to the 1989 and 1991 surveys. Use
of “participating physicians” has remained about the same.



                                       FIGURE 8


                          BENEFICIARY AWARENESS AND USE
                  1oo-
                            OF PARTICIPATING PHYSICIANS
                                                                    Lefpltl
                   so-
                                                                   AWARE OF
                   so-    77

                                                                   USE
                   70-

                   60-




               L   So

                   40
                   30-

                   zo-
                   io-
                    n-l
                           Iistl       Ii!ll        I!&




Sixty-nine percent of all the beneficiaries surveyed said they had never called their
carriers to get the names of “participating physicians,” and 24 percent of those
surveyed said they did not know their carriers provided this type of information.


CONCLUSION

Medicare carriers seem to be doing a better job this year processing Part B claims
than in previous years. Most beneficiaries are satisfied with claims processing and said
their claims are processed quickly enough. The number of beneficiaries experiencing
problems with claims has declined since our previous survey.




                                               15
Some beneficiaries do, however, have trouble understanding Medicare payments.
Some do not understand what part of a claim was paid and why. Carriers began using
a revised “Explanation of Medicare Benefits” (EOMB) in 1992 which HCFA is
assessing. An OIG study on the EOMB should provide HCFA with specific
information to help increase beneficiaries’ understanding of Medicare payments.

Most beneficiaries who had called their carriers for assistance were satisfied with the
sewice they had received. Further, the number of beneficiaries experiencing problems
calling their carriers decreased from the 1991 survey. Over one-third (43 percent) of
the beneficiaries who had called and experienced a problem said the line was busy.
Carriers may be trying to improve their telephone service by using automated voice
systems. However, the majority of beneficiaries using those systems have problems
with them. Carriers need to continue their efforts to improve beneficiary access to
their semices.




                                           16
                                  APPENDIX                 A


               RESPONSES TO 1993 SURVEY OF MEDICARE                BENEFICIARY
                                  SATISFACTION


     �	        Not every respondent answered every question. Percentages are based on
               actual responses. The number of respondents not answering an individual
               question is not included in the calculation of percentages.

     s	        The sum of individual percentages may not equal 100 percent due to
               independent rounding.

     �	        For Questions 2, 9, 11, 19, 23, and 25, respondents could check more than
               one choice. The sum of the percentages will total more than 100.



Question                                               Responses   Percentage

PART 1: MEDICARE               COVERAGE

1.        In gene~    do you think...

          a.€ The Medicare program is
              understandable?
                                                         753            75
               NO                                        256            25
               NO ANSWER:       44

          b.   You can get information about
               Medicare when you need it?
               YES’                                      730            72
               NO                                         76             7
               DON’T KNOW                                215            21
               NO ANSWER: 32

          c.€ Medicare pays your claims
              quickly enough?
              YEs                                         727           71
              NO                                          153           15
              DON’T KNOW                                  144           14
              NO ANSWER: 29



                                               A-1
Question                                          Responses      Percentage

2    What types of medical insurance do you or your spouse have in addition to
     Medicare?

     (Check all that apply)

     (N=   1010- Number Responding to Question)

     DO NOT HAVE ADDITIONAL
      INSURANCE COVERAGE                            199          20
     MEDICAID                                       111          11
     HEALTH INSURANCE THROUGH YOUR
      OR YOUR SPOUSE’S CURRENT OR
      FORMER EMPLOYER                               329          33
     PRIVATE MEDICARE SUPPLEMENT                    273          27
     CHAMPUS                                          5           .5
     OTHER                                          238          24
     NO ANSWER: 43

3.   Do you feel at this time you are in good health?

                                                    664           67
     NO                                             331           33
     NO ANSWER:       58

4.€ Thinking about the most recent time you were a patient in a hosuitd for at kast
    one nigh~ was it clear to you what Medicare paid for?

     (Check ~     answer.)

     I HAVE NOT BEEN IN THE HOSPITAL
       FOR AT LEAST ONE NIGHT SINCE
       I HAVE HAD MEDICARE COVERAGE                     352       34
     YES, IT WAS CLEAR WHAT MEDICARE
       PAID FOR                                         416       40
     NO, IT WAS NOT CLEAR WHAT
       MEDICARE PAID FOR                                151       15
     I DO NOT REMEMBER IF IT WAS
       CLEAR WHAT MEDICARE PAID FOR                     100       10
     MEDICARE HAS NOT YET PAID THE
       HOSPITAL                                          13        1
     NO ANSWER: 21




                                          A-2
Question                                       Responses          Percentage

5.	   Thinking about the most recent time you received medical seMces in vow home
      from a home health a~enq, was it clear to you what Medicare paid for?

      (Check me answer.)

      I HAVE NOT RECEIVED MEDICAL
        SERVICES FROM A HOME
        HEALTH AGENCY SINCE I
        HAVE HAD MEDICARE                            783          78

      YES, H’ WAS CLEAR WHAT
       MEDICARE PAID FOR                             154           15

      NO, IT WAS NOT CLEAR WHAT
       MEDICARE PAID FOR                              30            3

      I DO NOT REMEMBER IF IT WAS
        CLEAR WHAT MEDICARE PAID FOR                  30            3

      MEDICARE HAS NOT YET PAID FOR
       THE HOME HEALTH SERVICES                       12            1
      NO ANSWER: 44

6.€ Thinking about the last time you went to the doctor, was it clear to you before
    you went what Medicare would pay for?

      (Check ~    answer.)

      I HAVE NOT BEEN TO THE
        DOCTOR SINCE I HAVE HAD
        MEDICARE                                      36            4
      YES, IT WAS CLEAR WHAT
        MEDICARE WOULD PAY FOR                       563           55
      NO, IT WAS NOT CLEAR WHAT
        MEDICARE WOULD PAY FOR                       348           34
      I DO NOT RECALL                                 74            7
      NO ANSWER: 32

 7.€ Did you know before today that Medicare limits how much doctors can charge
     you for specific services?

      YEs                                            653           64
      NO                                             373           36
      NO ANSWER:       27


                                         A-3
                                                Responses          Percentage
Question

8.     If you should ever need nursing home care, do you have a way to cover the cost?

                                                     362               37
                                                     587               60
       NO (Skip to Q-10)
       I AM CURRENTLY IN A
                                                       32               3
         NURSING HOME (Skip to Q-n)
       NO ANSWER: 72

9.€ I&ted below are some ways people might pay for nursing home care. Which of
        these would you rely on if you ever needed nursing home care for more than 5
        months?

        (Check all that appo.)

        (N=    286- Number Responding to Question)

                                                      160              56
        PERSONAL SAVINGS
                                                      126              44
        RETIREMENT INCOME
                                                       88              31
        PRIVATE INSURANCE
                                                       87              30
        MEDICAID
                                                       91              32
        EQUITY IN YOUR HOME
                                                       25               9
        OTHER
        NO ANSWER: 76

     10.€ Many people think Medicare will pay for long-term nursing home care. It
         currently does not. Before today, did you think that Medime        WOD   PAY for
         long-term nursing home care for more than 5 months?

                                                       222              24
         YEs
                                                       702              76
         NO
         NO ANSWER:       97




                                             A-4
Question                                       Responses          Percentage

PART 2     GETPING      INFORMATION    ABOUT MEDICARE

11.	 The following are some places people might go to get answers if they have
    questions about what Medicare pays for.

    Where would you go to get information about what Medicare pays for?

    (Check all that apply.)

    (N=    1025-   Number Responding to Question)

    YOUR DOCI’OR’S OFFICE                           495           48
    A FRIEND OR RELATIVE                            103           10
    AARP OR OTHER MEMBERSHIP
     ORGANIZATION                                   200           20
    INSURANCE COMPANY THAT
     PROCESSES YOUR MEDICARE
      CLAIMS                                        324           32
    THE SOCIAL SECURITY OFFICE                      465           45
    A LOCAL SENIOR CITIZENS’ GROUP                   83            8
    AN INSURANCE SALESPERSON                         17            2
    THE MEDICARE HANDBOOK                           552           54
    OTHER                                            40            4
    NO ANSWER: 28

12€ When you have needed specific information about what Medicare pays for, how
    often were you able to get the information you needed?

    (Check u       answer.)

    MOST OF THE TIME                                393           39
    SOME OF THE TIME                                182           18
    SELDOM OR NEVER                                  82            8
    I HAVE NEVER NEEDED
      INFORMATION                                   360           35
    NO ANSWER: 36




                                         A-5
                                                  Responses         Percentage
Question

13.	 Listed below are ways the Government   could use to tell people about changes in
     the Medicare program.

    Which way is best for notifying you of Medicare changes?

    (Please check ONLY ONE.)

    (N=    1032-   Number Responding to Question)

    ANNOUNCEMENTS ON TELEVISION
                                                   70                 7
     AND RADIO
    PAMPHLETS DESCRIBING THE
                                                  357                34
      CHANGES MAILED TOME
    NOTIC~ INCLUDED WITH MY
                                                   179               17
      SOCIAL SECURITY CHECK
    A NEW MEDICARE HANDBOOK
      MAILED TOME THAT INCLUDES
                                                   394               38
      THE CHANGES
    ANNOUNCEMENTS IN THE
                                                    12                1
      NEWSPAPER
    SPEECHES OR PRESENTATIONS BY
                                                                       1
      MEDICARE REPRESENTATIVES                      11
                                                     9                .8
     OTHER
     NO ANSWER: 21

 14. How many times in the past year have you used your Medicare Handbook?

      (Check ~     answer.)

                                                   368                36
      1 TO 3 TIMES
                                                    57                 6
      MORE THAN 3 TIMES
      I HAVE NEVER USED THE
        MEDICARE HANDBOOK
                                                    345               34
        (skip to Q-17)
      I DO NOT KNOW WHAT THE
        MEDICARE HANDBOOK IS
                                                     27                   3
        (skip to Q-17)
      I DO NOT RECALL RECEIVING
        A MEDICARE HANDBOOK
                                                    213                21
        (skip to Q-17)
       NO ANSWER: 43




                                            A-6
                                                      Respo-      Percentage
Question

15. Do you think the Medicare Handbook ix

    (Check ~      answer.)

                                                      113         27
    VERY HELPFUL
                                                      272         66
    GENERALLY HELPFUL
                                                       19          5
    GENERALLY NOT HELPFUL
                                                        7          2
    NOT HELPFUL AT ALL
    NO ANSWER: 14

16. Thinking about the Medicare Handbook you have receivec$ would you say that...

     a.    The wording is easy to understand?
                                                       314         80
           YEs
                                                        78         20

           NO
           NO ANSWER: 33

     b.    The lettering is large enough to read?
                                                       345         94
                                                        23          6
           NO
           NO ANSWER:         57

     c.    It covers enough information?
                                                       284         85
           YEs
                                                        51         15
           NO
           NO ANSWER: 90

 PART 3: MEDICARE             CLAIMS

 17.€ Did you know before today that your doctors are supposed to file your Medime
      claiI& for you?

                                                        921         90
      YEs
                                                        100         10
      NO
      NO ANSWER:         32




                                                A-7
Question                                       Responses           Percentage

18. Ove@    how satisfied are you with the way Medicare has processed your claims?

    VERY SATISFIED                             378                 37
    GENERALLY SATISFIED                        472                 46
    NEITHER SATISFIED NOR
     DISSATISFIED                              91                   9
    GENERALLY DISSATISFIED                     26                   3
    VERY DISSATISFIED                          12                   1
    MEDICARE HAS NOT YET
     PAID CLAIM                                 39                  4
    NO ANSWER: 35

19.	 Did you have any of the following problems the last time you had a Medicare
     claim for a doctor’s visit?

    (N=    988- Number Responding to Question)

    (Check as manv as amdy.)

    I HAD DIFFICULTY GETT’ING
       INFORMATION FROM MEDICARE
       ON THE STATUS OF MY CLAIM                27                  3
    I DID NOT UNDERSTAND WHAT
       PART OF MY CLAIM
       MEDICARE PAID AND WHY                   144                  15
    I DID NOT UNDERSTAND WHY
       MEDICARE DENIED THE CLAIM                79                  8
    MEDICARE TOOK TOO LONG TO
       PAY MY CLAIM                             85                  9
    I DID NOT UNDERSTAND THE
       NOTICE MEDICARE SENT
       AFTER PROCESSING MY
       CLAIM. (THE NOTICE IS
       CALLED ‘EXPLANATION OF
       MEDICARE BENEFITS.” )                   128                  13
     I DID NOT HAVE A PROBLEM
       WITH MY MEDICARE CLAIM                  643                  65
     OTHER                                      34                   3
     NO ANSWER: 65




                                        A-8

Question                                           Responses           Percentage

PART 4     CALLING    MEDICARE

20.	 Have you ever tried to call the insurance company that processes your Medicare
     claims?

    YES - Month and Year of Last Call:             288                 29
    NO (Skip to 026)                               708                 71
    NO ANSWER: 57

21.	 Thinking about the last time you tried to @     how many tries did it take you to
     reach them?

    (Check =    answer.)

    FIRST TRY                                       95                 35
    SECOND TRY                                      71                 25
    THREE OR MORE TRIES                             85                 32
    NEVER GOT THROUGH                               22                  8
    NO ANSWER: 15

22. How satisfied were you with the service you received the last time you called?

    (Check me answer.)

    VERY SATISFIED                                  87                 31
    GENERALLY SATISFIED                            119                 43
    NEITHER SATISFIED NOR
     DISSATISFIED                                   32                 12
    GENERALLY DISSATISFIED                          25                  9
    VERY DISSATISFIED                               13                  5
    NO ANSWER: 12




                                         A-9
Question                                      Responses           Percentage

23.	 J&ted below are possible problems someone might have when calling the
     Medicare insurance company.

    Did you have any problems the last time you called?

    (N=    230- Number Responding to Question)

    (Check as many as apply.)

    I WAS NOT ABLE TO GET MY
      QUESTION ANSWERED                         20                 9
    THE LINE WAS BUSY                          100                43
    I GOT DIFFERENT ANSWERS
      FROM DIFFERENT PEOPLE                    39                 17
    I WAS PUT ON “HOLD’ TOO LONG               63                 27
    I COULD NOT UNDERSTAND
      THE ANSWER THEY GAVE ME                   23                10
    THE PERSON ANSWERING THE
      CALL WAS NOT VERY
      COURTEOUS                                 23                10
    I DID NOT HAVE A PROBLEM
      WITH THE SERVICE I RECEIVED              116                50
    OTHER                                       7                  3
    NO ANSWER: 58

24.	 Some Medicare insurance companies use an automated   voice system to handle
    telephone calls.

    Thinking about the last time you called the Medieare insurance company that
    processes your cl-     how was your cdl answered?

    BY AN AUTOMATED VOICE                       80                31
    BY A MEDICARE EMPLOYEE                     177                69
     (skip to Q-26)
    NO ANSWER: 37




                                       A-10
Question                                          Responses    Per=ntage


25.	 T.isted below are possible reasons that someone would be dissatisfied with fig
     the Medieare insurance company and getting an automated voice.

    Did you have any of these problems the last time you called?

    (N = 48- Number Responding to Question)

     (Check as many as a@!.)

     I DID NOT HAVE A TOUCH-TONE
       TELEPHONE TO RESPOND TO
                                                                       73
       THE AUTOMATED VOICE SYSTEM                  35
     I COULD NOT UNDERSTAND THE
       DIRE~IONS  GIVEN BY THE
                                                    18                 38
       AUTOMATED VOICE SYSTEM
                                                     7                 14
      OTHER
      NO ANSWER: 32

 PART 5: APPEALING          CLAIMS

 26.	 sometimes  people disagree with the decisions made on their Medieare claims.
      When this happens, you may appeal or request a review of those deeisiom.

      Did you know before todav that you could appeal or request a review?

                                                   749                  75
                                                   254                  25
      NO
      NO ANSWER:       50

  27. Have you ever appealed a decision made by Medime        on a claim you submitted?

                                                     60                     6
                                                    904                    94
      NO (SkiP to @30)
      NO ~S-~R:     89

  28. Did you understand the final decision made on your claim?

                                                     35                    65
                                                     19                    35
       NO
       NO ANSWER:       6




                                            A-n
Question                                       Responses             Percentage

29. Do you think your appeal was handled fairly?

                                                28                    59
    NO                                          20                    41
    NO ANSWER:       12

PART & GETTING SECOND OPINIONS

30.	 If your doctor recommends that you have surgery, Medicare will help you pay to
     get the opinion of another doctor to make sure the surgery is really necessary.

    Were you aware before today that Me&are        would help to pay for you to get a
    second opinion before having surgery?

                                               397                    39
    NO                                         624                    61
    NO ANSWER:       32

31.	 Do you think people should be required to get a second opinion from another
     doctor to make sure non-emergency surge~ is really necessary?

    YEs                                        526                    51
    NO                                          49                     5
    DEPENDS ON THE TYPE OF
     SURGERY                                   447                    44
    NO ANSWER: 31

32.	 Thinking about the last time you had non-emergency    surgery, did you get a
     second doctor’s opinion before having the surgery?

                                                185                   19
    NO                                          425                   43
    I HAVE NEVER HAD
      NON-EMERGENCY SURGERY                     382                   39
    NO ANSWER: 61




                                        A-12
Question                                        Respmses              Percentage

PART 7     ‘PARTICIPATING      DOCI’ORS” PROGRAM

33.	 Medieare has “participating doctors” who agree to charge no more than
     Medicare’s approved amount. Medicare pays 80% of the approved amount          You
     are only responsl~le for paying the deduetiile and the 20% coinsurance.

    Before today, had you ever heard about Medicare “participating doctors?”

    YEs                                         853                   83
    NO                                          172                   17
    NO ANSWER:       28

34. Are any of your doctors “participating doctors?”

                                                 677                  65
    NO                                            94                   9
    DON’T KNOW                                   262                  25
    NO ANSWER: 20

35.	 Have you ever contacted the insurance company that processes your Medicare
     claims to get the names of doctors who are “participating doctors?”

                                                  65                   6
    NO                                           703                  69
    I DID NOT KNOW I COULD GET
      THIS INFORMATION FROM THE
      INSURANCE COMPANY THAT
      PROCESSES MY CLAIMS                        246                  24
    NO ANSWER: 39

36. Thinking about the future, how likely are you to select a “participating doctor” for
    health care seMces?

    (Check ~     answer.)

    LIKELY TO SELECT
     “PARTICIPATING DOCTOR’                      634                  65

    NOT LIKELY TO SELE~
     “PARTICIPATING DOCTOR’                       78                   8

    WILL NOT MATTER IF DOCTOR
     IS “PARTICIPATING”                          262                  27

    NO ANSWER: 79




                                         A-13
                            APPENDIX                  B


                 COMPARISON      TO THE 1989 AND 1991 SURVEYS


L    S~              BETWEEN THE SURVEYS

The majority of the questions from the 1991 Medicare Beneficiary Survey (OEI-04-90-
89030) were used in the 1993 suxvey. Twenty-nine questions from the 1991 survey
were essentially duplicated in the 1993 survey.


IL   DIFFERENCES      BETWEEN THE SURVEYS

The 1993 survey was designed to offer a greater number of optional responses, such as
the possibility of not having experienced a problem or not recalling a particular issue.
We tried to eliminate “skip to” situations, so we combined questions wherever possible.
For example, in 1991, we first asked beneficiaries if they had ever received medical
services in their home from a home health agency. If they had not, beneficiaries were
asked to skip questions. Then, we asked only those who had received such sefices if
it was clear what Medicare paid for. In the 1993 survey, we asked only one question
(Question 5) about home health agencies. This question included three additional
options that the 1991 survey did not include. The three options were “I have not
received medical services from a home health agency...”, “I do not remember if it was
clear what Medicare paid for,” and “Medicare has not yet paid for the home health
services.”

Reszxmre Rates

In 1989 and 1991, the response rates to our surveys were 65 and 83 percent,
respectively. The response rate to our 1993 survey was 84 percent.


HI.	 FINDINGS    OF SIGNIFICANT      DIFFERENCE       BETWEEN THE THREE
     SURVEYS

Where sufficient similarities existed between questions in the three surveys, we
compared responses to determine if differences were statistically significant. We
determined “significant” differences by using the t-test. Our purpose was to determine
whether the three surveys reflect significant differences regarding beneficiaries’
experience and satisfaction over the three survey years.




                                         B-1
Because we offered more options for beneficiary responses to questions in the 1993
survey, we could not do a direct comparison to determine changes in levels of
satisfaction for all Medicare issues.




                                        B-2
                             APPENDIX                   C�

            ANALYSIS     OF RESPONDENTS         VS. NON-RESPONDENTS

A consideration    in surveys of this type is that the results maybe biased if the non-
respondents are significantly different from the respondents. To determine whether
significant differences exist in this survey, we performed various analyses, including a
comparison of the age and gender for the 1053 respondents and the 204 non-
respondents. The analyses revealed no significant difference, which suggests that our
survey results were not biased.


ANALYSIS     BY AGE

The average age for respondents was 74, compared to age 77 for non-respondents.        A
means test revealed that the difference in average ages for the two groups was
statistically significant. Therefore, to analyze for potential bias related to age, we
divided respondents into two groups, those younger than 73 1/2 and those older than
that age. We then performed a t-test on each group’s responses to three key
questions on the questionnaire (Questions la, lb, and lc). Those three questions,
posed to all respondents, relate to program understandability, availability of
information, and claims processing quickness. The t-tests revealed no statistically
significant differences between responses to those questions by younger beneficiaries
and responses by older beneficiaries. That is, the frequency of positive and negative
responses for the two age groups was not significantly different. Therefore, no
statistical evidence of age bias was shown.


ANALYSIS BY GENDER

The analysis by gender showed that the distribution of male and female respondents
was not comparable to the distribution of non-respondents.


              “’:   s@!l& “ ,j&ijii?h@&J@
                      &%                  42%                      31%
  FEMALE              60%                 58%                      69%

Due to the significant percentage differences between male and female respondents
versus non-respondents, additional analysis was necessary.

Using three questions (Questions la, lb, and lc) on the questionnaire as key
questions, we concluded there was an absence of bias among the sexes. The positive


                                          c-1
(YES) responses to the key questions were, cumulatively, 71 percent for male
respondents and 70 percent for female respondents.


ANALYSIS     BY TIME OF RESPONSE

As an additional guard against obtaining biased results, some suxveys similar to this
one are reviewed for differences which may exist between early and late responses.
The rationale is that late respondents and non-respondents may share certain
tendencies. For example, when compared to early respondents, late respondents could
hold more negative (or, at least, less enthusiastic) opinions.

To test for possible late response bias in this survey, the first 800 responses (76
percent) were compared to the last 253 responses.

Again, three key questions were used for analysis. The early responses to the key
questions were, cumulatively, 65 percent positive. The later responses were 63 percent
positive. The difference of two percentage points is not statistically significant.




                                           c-2
